No. 20-1088

Jn tltbe
ss,upreme QCourt of tbe liniteb ss,tates
DAVID AND AMY CARSON, AS PARENTS AND NEXT FRIENDS OF O.C., ET AL.,

Petitioners,
v.

A. PENDER MAKIN,IN HER OFFICIAL CAPACITY AS COMMISSIONER OF THE MAINE
DEPARTMENT OF EDUCATION, Respondent.

On Writ of Certiorari to the
United States Court of Appeals for the First Circuit

CERTIFICATE OF SERVICE
Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 29.S(b), hereby certifies that one copy of the Amicus Brief of the American Center for Law
and Justice in Support of Petitioners has this day been served upon all parties required to be
served, by first-class mail, postage prepaid, mailed from Washington, DC to counsel at the
addresses below. In addition, a PDF version of this document is being transmitted electronically
to counsel listed below.
Michael E. Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-i'300
mbindas@ij.org

Sarah A. Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8800
sarah.forster@maine.gov

Counsel for Petitioners

Counsel for Respondent

1 ~ ~ -Walter M. Weber

September 8, 2021

